No. 20-1125
(CAPITAL CASE)

In The

Supreme Court of the United States
Antonio Devoe Jones,
Petitioner,
v.
State of Alabama,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE ALABAMA COURT OF CRIMINAL APPEALS
REPLY IN SUPPORT OF PETITION FOR WRIT OF
CERTIORARI
Steven A. Miller*
REED SMITH LLP
10 South Wacker Drive
Chicago, IL 60606-7507
Telephone: +1 312 207 1000
Facsimile: +1 312 207 6400
samiller@reedsmith.com
*Counsel of Record, Member of Supreme
Court Bar, Counsel for Petitioner

Petitioner Antonio Devoe Jones (“Jones”) replies to the new arguments raised
in the Brief of Respondent in Opposition to the Petition for Certiorari filed by the
State of Alabama (“State”).
I.

The State Attempts for the First Time to Distinguish Hinton and
Does So Only by Misrepresenting the Record Below
For the first time since the post-conviction proceedings began in this case, in

its Opposition to Jones’s Petition for Certiorari, the State attempts to directly address
the application of this Court’s prior rulings in cases involving trial counsel’s ignorance
of the law. But the State remains unable to deal with the actual facts pleaded in the
Amended Petition.
Instead, the State claims falsely that, “Jones does not cite, nor does the record
reflect, that trial counsel admitted he misunderstood the law in this case.” Brief in
Opp. at 12. However, the record in this case includes the Amended Petition for Relief
under Rule 32 of the Alabama Rules of Criminal Procedure (“Amended Petition”).
That pleading alleged that “Mr. Parker has admitted that it was only after making
this argument that he later found out the law only requires intent and not an actual
theft.” Amended Petition, p. 132, ¶ 345. If that was not clear enough, the Amended
Petition also asserted, “Mr. Parker later admitted that he had simply misunderstood
the elements of the crime of burglary.”

Amended Petition, p. 15, ¶ 42.

allegations are precisely what the State claims was not alleged.

-2-

These

The point of this Petition is that the Constitution entitles Jones to a hearing
on his allegations of ineffective assistance of counsel. The denial of discovery or any
evidentiary hearing on this pleading is why the circuit court did not hear the
testimony of Parker making the admissions that were alleged.
Thus, the State’s disingenuous attempt for the first time to distinguish Hinton
v. Alabama, 571 U.S. 263 (2014), fails. The State’s argument is that “the Hinton
decision is distinguishable. In Hinton, at an evidentiary hearing, trial counsel
testified that he was unaware that Alabama law no longer imposed specific funding
limitations.” Brief in Opp. at 14.
That is no distinction when, as here, there was no evidentiary hearing in the
pending case. This case was decided on the State’s motion to dismiss the Amended
Petition on the pleadings, and the pleading here contains allegations that trial
counsel was unaware of the Alabama law regarding burglary. Those allegations must
be treated as true.
II.

The State Fails to Address that Jones was Prejudiced by Failure of
Counsel to Present the Legally Valid Bystander Defense.
Nowhere does the State ever discuss or challenge the fact that Jones had an

effective legal defense based on the considerable evidence he was not the killer, and
in Alabama felony-murder does not support a death penalty. The State includes only
a conclusory paragraph that Jones “failed to allege . . . actual prejudice resulted,”
Brief in Opp. at 14.

-3-

The Amended Petition alleged Jones’s trial counsel failed to argue the facts or
legal significance of this legitimate defense, and also failed to request jury
instructions on this topic. Amended Petition p. 66, ¶¶ 162-67. Instead, they wasted
their efforts on a legally bogus defense. As detailed in the Petition for Certiorari, this
failure to assert that felony-murder is not a capital offense led to obvious prejudice
against Jones. The State’s silence regarding this valid but unasserted defense shows
it is unable to refute the prejudice that resulted.

-4-

CONCLUSION
Given the extensive and well-pleaded claims of Jones’s Amended Petition, the
failure of the State’s Opposition to address them, and the issues raised in this Reply,
this Court should grant the petition for certiorari. In the alternative, this Court
should per curiam reverse the decision of the Alabama Court of Criminal Appeals
with directions for the court to grant an evidentiary hearing on the Amended Petition.
Respectfully submitted,
/s/ Steven A. Miller
REED SMITH LLP
10 South Wacker Drive
Chicago, IL 60606-7507
Telephone: +1 312 207 1000
Facsimile: +1 312 207 6400
samiller@reedsmith.com
Counsel of Record, Counsel for
Petitioner
Date submitted: April 30, 2021

-5-

CERTIFICATE OF SERVICE
This certifies that, pursuant to Supreme Court Rule 29 and the Court’s
“GUIDANCE CONCERNING CLERK’S OFFICE OPERATIONS” issued on
November 13, 2020, one copy of this document was sent by overnight mail to the Clerk
of The Supreme Court, and one copy of this document was sent by overnight mail to:
Audrey Jordan
Assistant Attorney General
ALABAMA OFFICE OF THE ATTORNEY GENERAL
501 Washington Avenue
Montgomery, AL 36130-0152
Dated: April 30, 2021
/s/ Steven A. Miller
Steven A. Miller

-6-

